OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PERU’S
ALTERNATIVE DEVELOPMENT
ACTIVITIES

AUDIT REPORT NO. 1-527-14-006-P
March 21, 2014




SAN SALVADOR, EL SALVADOR
Office of Inspector General


March 21, 2014

MEMORANDUM

TO:       	          USAID/Peru Mission Director, Deborah Kennedy-Iraheta

FROM: 	              Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	            Audit of USAID/Peru’s Alternative Development Activities
                     (Report No. 1-527-14-006-P)

This memorandum transmits our final report on the subject audit. This report contains
seven recommendations to help USAID/Peru manage alternative development activities. We
have considered your comments on the draft report and adjusted the text when appropriate.
Your comments are included in Appendix II.

This report includes seven recommendations. Based on our evaluation of management
comments, we acknowledge that the mission has taken final action on two recommendations
and has made management decisions on five. However, we disagree with the mission’s
decision on Recommendation 7. Please provide written notice within 30 days of any actions
planned or taken to implement this recommendation and a target date for completion.

Please coordinate final action for all recommendations with the Office of Audit Performance and
Compliance Division.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     CEDRO Did Not Develop Sustainability Plan for Technological Centers................................ 5 


     CEDRO Did Not Establish Some Indicators or Reported Results ........................................... 6 


     Training Data Reported Were Inaccurate ............................................................................... 7 


     CEDRO Did Not Collect Data Consistently at Technological Centers .................................... 8 


     CARANA Did Not Provide Summarized Program Results Against Targets ............................ 9 


     USAID/Peru Overstated Results for Jobs Created ............................................................... 10 


Other Matter............................................................................................................................... 11 


     Sustainability of Cacao Alliance Was Uncertain ................................................................... 11 


Evaluation of Management Comments................................................................................... 12 


Appendix I—Scope and Methodology .................................................................................... 14 


Appendix II—Management Comments ................................................................................... 16 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer representative
CEDRO           Centro de Información y Educación para la Prevención del Abuso de Drogras
FY              fiscal year
PMP             performance monitoring plan
RIG             Regional Inspector General
TraiNet         Training Results and Information Network
SUMMARY OF RESULTS 

The U.S. and Peruvian Governments have collaborated on initiatives to eradicate coca, the
plant used to make the drug cocaine, and replace it with legal crops such as cacao, coffee, and
palm oil. To support these efforts, USAID/Peru has spent approximately $453 million over the
past 11 years to reduce the amount of cocaine exported from Peru.

Although Peru’s overall cultivation of coca continues to expand in rural poor areas, USAID/Peru
had made considerable progress in San Martin Region1 (located in the northern part of the
country) where the mission has focused its efforts. It reports that coca growing there decreased
from 22,000 hectares in 1996 to 1,000 hectares in 2011.




                         These cacao pods grow on the farm of a USAID beneficiary in 

                         Ucayali Region. (Photo by RIG/San Salvador, October 17, 2013)


As part of its efforts to consolidate gains made in San Martin and to expand into the nearby
regions of Huanuco and Ucayali, USAID/Peru entered into two cooperative agreements.

	 On May 4, 2012, USAID/Peru signed a 3-year, $8 million cooperative agreement with
   Centro de Información y Educación para la Prevención del Abuso de Drogras (CEDRO), a
   Peruvian nongovernment organization, to implement the Digital Inclusion Program. The
   objective was to contribute to the social and economic development in priority alternative
   development areas of the Amazon, and to promote legal activities in alliance with public and
   private organizations.

	 On October 9, 2012, USAID/Peru signed a 4-year, $36 million cooperative agreement with
   CARANA Corp., a U.S. consulting firm, to implement the Alianza (Alliance) Cacao Peru. The
   alliance’s objective was to promote alternative sources of income to coca growers in
   Huánuco, San Martín, and Ucayali.


1
    Peru is divided into 24 regions, which are comparable to states.

                                                                                              1
As of November 6, 2013, cumulative obligations, disbursements, and advances            for CEDRO
totaled $5.9 million, $2.4 million, and $1.2 million, respectively; cumulative          obligations,
disbursements and advances for CARANA’s program totaled $19.3 million, $5.7            million, and
$4.4 million, respectively. According to USAID/Peru, these awards represent less       than half of
the mission’s overall alternative development budget.




                  USAID funded technology centers or “telecentros” like this one in
                 Ucayali so people could research crops or promote their businesses.
                            (Photo by RIG/San Salvador, October 18, 2013)

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit as part
of its fiscal year (FY) 2013 audit plan to determine whether USAID/Peru was achieving its goals
under the two programs.

CEDRO is on track to meet its goal of opening 30 technological centers in the 3 targeted
regions. As of January 2014, CEDRO has opened 25 centers, and the remaining 5 are
scheduled to be opened by April 2014.

CEDRO signed memorandums of understanding with the local governments in which they
agreed to contribute up to at least 40 percent of the cost to operate the centers. Government
officials and community leaders interviewed expressed deep appreciation for the technological
centers and the opportunity to have Internet in remote locations where it had not been available.
CEDRO also worked with local Internet and telecommunications providers and municipality
officials to set up antennas and service expeditiously at these centers.




                                                                                                  2
CEDRO created these training materials to teach people how to use the computer and Internet. The training
      was conducted at the technological centers. (Photo by RIG/San Salvador, October 4, 2013)

CARANA showed limited results in the first year; only 380 hectares of cacao were planted out of
the overall goal of 28,000 hectares by 2016. This happened because (1) CARANA’s chief of
party and a key subcontractor were replaced, (2) a partner could not register in Peru and (3) the
program’s leadership was restructured and divided among three regional directors. In addition,
the program ran into delays obtaining plants.

USAID/Peru officials explained that planting and growing cacao cannot be done quickly.
Considerable initial groundwork on locating sites and establishing necessary local relationships
and agreements is necessary before meaningful results can be obtained, they said.

Despite the slow start, CARANA moved quickly to remedy its problems, and officials there as
well as the agreement officer’s representative (AOR) said the program’s goal can be achieved
by 2016.

Overall, the audit identified the following problems.

	 CEDRO did not develop a sustainability plan for the technological centers (page 5).

	 CEDRO did not establish some indicators or reported results (page 6). Although the Digital
   Inclusion Program reported on activities completed and is on target for opening
   30 technological centers, it did not report results for two of its three components or establish
   any indicators for the third. Therefore, the mission cannot determine how the program is
   working.

	 Training data reported were inaccurate (page 7). CARANA and CEDRO entered training
   data into USAID’s Training Results and Information Network (TraiNet) incorrectly for the
   number of participants trained in their programs.

	 CEDRO did not collect data consistently at the technological centers (page 8).
   Administrators at the centers did not collect information on users and people who came to
   the training.




                                                                                                            3
	 CARANA did not provide summarized program results against targets (page 9). While
   CARANA reported on various activities, it did not provide or summarize achievements
   toward reaching indicator goals.

	 USAID/Peru overstated results jobs created (page 10). CARANA’s calculation for jobs
   created included calculations for jobs related to preexisting and productive cacao planted
   during a previous program.

In another matter, the sustainability of the Cacao Alliance was uncertain (page 11). CARANA
just completed the first year of its 4-year program, and its draft Year 2 work plan includes initial
steps to make the program sustainable after USAID assistance ends.

The report recommends that USAID/Peru:

1. 	 Work with CEDRO to create a written sustainability plan for the technological centers
     (page 6).

2. 	 Work with CEDRO to reevaluate and document what indicators should be tracked for all
     three components, and report on the progress of these indicators (page 7).

3. 	 Direct CEDRO to define in writing the criteria for reporting a person trained (page 8).

4. 	 Work with CARANA and CEDRO to update USAID’s TraiNet to accurately reflect who has
     been trained (page 8).

5. 	Work with CEDRO to implement policies and procedures on what and how information
    should be collected at the technological centers (page 8).

6. 	Develop in conjunction with CARANA a template for summarized reporting of expected
    target results and progress toward those targets (page 9).

7. 	Document a revised calculation for jobs generated from existing crops assisted, and
    document a full-time equivalent multiplier, which is a coefficient for calculating jobs created
    through planting plantains (page 10).

Detailed findings follow. The audit scope and methodology are described in Appendix I on
page 14. Our evaluation of USAID/Peru’s management comments will appear on page 12, and
the mission’s comments will appear in Appendix II.




                                                                                                  4
AUDIT FINDINGS 

CEDRO Did Not Develop
Sustainability Plan for Technological
Centers
USAID’s project design guidance states, “The ultimate goal of development cooperation is to
enable developing countries (governments, civil society, and private sector organizations) to
devise and implement their own solutions to key development challenges. All projects must
define the degree of sustainability that is considered essential for the success of the project.”

CEDRO’s Digital Inclusion Program intends to “create a network of technological centers for the
Amazon to be used as places of learning, gathering, and communication that will strengthen the
social and economically sustainable development of the communities through the use of new
information technologies in the Amazon areas that have been affected by drug trafficking in
alliance with public and private organizations.” Also, as part of the program’s institutional
strengthening for sustainability, CEDRO agreed to implement a capacity-building plan to
“improve its ability to perform this and other programs.”

The main activity in the digital program is to install 30 technological centers in Huanuco, San
Martin, and Ucayali. These centers will provide Internet services and train farmers, women, and
youth to use computers and the Internet to access information about services available, connect
with other farmers and suppliers, and learn how to generate income from legal activities.

As of January 2014, CEDRO had opened 25 technological centers. The remaining five are
scheduled to be opened by April 2014.




       CEDRO created signs and installed antennas, like those shown above, for the technological
                     centers in Peru. (Photo by RIG/San Salvador, October 2013)

With only 18 months left before the program ends in May 2015, CEDRO still had not developed
a sustainability plan to address how and who would continue to operate or finance the centers.
Digital program employees said they focused primarily on opening and establishing them and
planned to address sustainability during the time left.

                                                                                                   5
USAID/Peru and CEDRO have discussed different options for transitioning the centers, but no
plan has been developed. Mission employees said CEDRO is on track to have a sustainability
plan for the technological centers, and CEDRO’s Year 2 work plan said it would hire a
consultant to help. However, the consultant has not yet been identified.

A sustainability plan is critical. Delays in it could affect the program’s and CEDRO’s ability to be
sustainable at the end of the agreement. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Peru work with Centro de Información
   y Educación para la Prevención del Abuso de Drogras to create a written sustainability
   plan for the technological centers.

CEDRO Did Not Establish Some
Indicators or Reported Results
USAID’s Automated Directives System (ADS) 203.3.2 states that performance indicators are
“the basis for observing progress and measuring actual results compared to expected results.”
USAID’s TIPS No. 6, “Performance Monitoring and Evaluation,” states, “Performance indicators
define measure of change . . . when well-chosen, convey whether key objectives are achieved
in a meaningful way for performance management.” The guidance also notes, “Performance
indicators define the data to be collected and enable actual results achieved to be compared
with planned results over time.”

Furthermore, ADS 203.3.5 states that monitoring plans “submitted to USAID should include only
those indicators that the mission needs for activity management, rather than the entire set of all
indicators an implementer uses for its management purposes.”

The agreement required CEDRO to “place emphasis on quantifiable indicators wherever
possible in addition to qualitative data.” It also stated that monitoring and evaluation will be
“conducted through ongoing assessments of project outcomes and indicators in the approved
performance monitoring plan (PMP).” The PMP stated that 14 indicators agreed upon with the
mission would be reported on an annual or semiannual basis.

To meet the goal of the Digital Inclusion Program, CEDRO has three components, listed below.

1. 	Create 30 technological centers in the three regions to be used as places of learning,
    gathering, and communication that will strengthen the social and economically sustainable
    development of the communities.

2. 	 Promote an alliance between public and private organizations to develop public policies that
     focus on youth intervention through an exchange of lessons to support Peruvian youth.

3. 	Improve CEDRO’s institutional strengthening for sustainability by developing a plan to
    improve its performance as an organization and its programs.

Although CEDRO has reported on activities accomplished for all three components, as of
October 2013, it has not reported results for any indicators. Furthermore, CEDRO had
established indicators for the first two components, but did not establish any for the third.
Mission officials said the program focused more on the first two and overlooked the importance
of establishing indicators for the third.

                                                                                                  6
CEDRO and USAID/Peru informally agreed to start reporting results in Year 3, giving CEDRO
time to open the technological centers and collect baseline data. Although baseline data were
collected from the first ten centers opened, CEDRO did not complete its analysis or report
results. Additionally, CEDRO officials said they were not certain how the program would
calculate some indicator results. According to mission staff, the indicators were complex and
would require more time to conduct evaluations and surveys before results can be reported.

Additionally, mission staff said although several indicators were established for the
first two components, they were not relevant to the program objective because the mission was
primarily concerned with establishing the centers.

The mission needs to reevaluate the indicators under the Digital Inclusion Program. Without
performance indicators or results that measures progress, USAID/Peru is missing critical
information for making decisions about the program and for verifying that the overall objective is
being achieved. Therefore, we recommend the following.

   Recommendation 2. We recommend that USAID/Peru work with Centro de Información
   y Educación para la Prevención del Abuso de Drogras to reevaluate and document what
   indicators should be tracked for all three components and report on the progress of
   these indicators.

Training Data Reported Were
Inaccurate
ADS 253.3 states that all USAID units involved in funding or managing training must “design,
implement, and track the training or program event for results and impact,” and “report on
participant training activities as part of their monitoring, evaluation, and reporting requirements.”
Training information that meets minimal requirements of hours trained must be entered into
USAID’s TraiNet. In addition, per ADS 253.3.7.5, a participant’s progress must include rigorous
monitoring requirements, which at a minimum must include assurances that the participant is
attending scheduled activities or sessions of a technical program regularly.

As of October 3, 2013, CEDRO had reported in TraiNet that 719 people were trained from
May 5, 2012, through May 3, 2015 (the end of the award). However, this information was
inaccurate because it represents the total number of people who started training at various
times at all the technological centers, rather than the actual number of participants who
completed training during a specific time frame and location. Although CEDRO offered
three different courses, the data in TraiNet did not reflect them.

Furthermore, many of CARANA’s participants who attended less than 60 percent of a 2-day
course were counted as fully trained.

These problems occurred because CEDRO staff was unfamiliar with TraiNet, and USAID/Peru
did not give them enough guidance on how to use it. In addition, CEDRO did not define the
criteria clearly for what constituted a person trained. And, CARANA depended on employees in
its Virginia headquarters to enter data in TraiNet rather than verifying the data in Peru.

As a result, USAID/Peru’s training results were neither complete nor accurate, and the mission
did not have information related to those activities. Therefore, we make the following
recommendations.

                                                                                                   7
    Recommendation 3. We recommend that USAID/Peru direct Centro de Información y
   Educación para la Prevención del Abuso de Drogras to define in writing the criteria for
   reporting a person trained.

   Recommendation 4. We recommend that USAID/Peru work with CARANA Corp. and
   Centro de Información y Educación para la Prevención del Abuso de Drogras to update
   USAID’s Training Results and Information Network to accurately reflect who has been
   trained.

CEDRO Did Not Collect Data
Consistently at Technological
Centers
According to ADS 202.3.6, “Monitoring the quality and timeliness of outputs produced by
implementers is a major task of [USAID officials].” ADS 200.3.5.5 states that missions should
track whether projects achieve intended results by “(1) planning how they will systematically
monitor and evaluate progress, (2) regularly monitoring the achievements of programs and
projects, and (3) collecting and analyzing performance information to track progress toward
planned outcomes.”

Also, CEDRO’s agreement states:

       Activities for this program will be expected to provide timely feedback about
       project performance; ensure optimal use of available resources; and provide
       information regarding progress and accomplishments; performance monitoring
       activities will serve both recipient’s and USAID’s reporting and management
       needs and involve coordination on [monitoring and evaluation] strategies,
       selected benchmarks and indicators, presentation of programmatic progress
       reports, and ongoing discussions of performance monitoring processes and
       outcomes.

However, administrators at the technological centers did not collect data consistently. For
example, some collected training participant attendance sign-in sheets for each day of training,
while another collected sign-in sheets only once for courses that lasted for several days or
signed in participants instead of having the participants sign themselves in. Also, some
administrators collected data on users while others did not.

This occurred because CEDRO did not provide administrators with clear guidance on what
information to collect. CEDRO’s monitoring and evaluation team focused on how to collect and
automate information for indicators, rather than on basic information on how participants are
using the centers. The team was still deciding what information to collect for indicators and how
people were using the centers.

Without consistent and uniform methodologies for collecting information, the mission is at risk of
collecting and reporting inaccurate information. Without information on users at the centers, the
mission and CEDRO cannot assess the value of or benefits from the centers. Therefore, we
make the following recommendation.




                                                                                                8
     Recommendation 5. We recommend that USAID/Peru work with Centro de
     Información y Educación para la Prevención del Abuso de Drogras to implement policies
     and procedures on what and how information should be collected at the technological
     centers.

CARANA Did Not Provide
Summarized Program Results
Against Targets
According to ADS 202.3.6 “Monitoring the quality and timeliness of outputs produced by
implementers is a major task of [USAID officials]. Outputs are critical to achieving results.
Delays in completing outputs or problems in output quality provide an early warning that results
may not be achieved as planned. Early action in response to problems is essential in managing
for results.”

The cooperative agreement with CARANA states that quarterly reports must contain the
information required by Title 22, Code of Federal Regulations, Section 226.51 (d), which
requires performance reports to include a comparison of actual accomplishments to the goals
and objectives established for the period, and reasons why established goals were not met, if
appropriate.

In addition, USAID’s ProgramNet2 Web page provides a standard Excel template for
summarizing program results, which includes columns for baselines, quarterly indicator targets,
and actual achieved results. This performance indicator tracking table is designed to help
readers understand what the intended program results are and any progress made toward
achieving them. In addition, ADS 203.3.3.1(g) recommends using spreadsheets that allow users
to visualize and analyze trends in performance data.

CARANA’s PMP included 18 indicators; 14 were to be reported annually and 4 quarterly.
However, while quarterly reports contained information on various activities, they did not provide
achievements against target indicator goals. CARANA officials said they did not report on
indicator progress because at the time there was either no progress or the progress they made
had not been fully verified. A USAID representative said that under a cooperative agreement,
the Agency could not require the implementer to use a specific reporting format. However,
auditors provided CARANA employees with the ProgramNet template from which they
immediately prepared an indicator-tracking table that they included in their FY 2013
fourth quarter report.

When implementer reports do not contain progress against indicator targets, it hinders the
AOR’s ability to detect delays in completing outputs or problems in output quality. In addition, if
this information is not summarized, monitoring program achievements is harder than it needs to
be. Based on this, we make the following recommendation.

     Recommendation 6. We recommend that USAID/Peru develop in conjunction with
     CARANA Corp. a template for summarized reporting of expected target results and
     progress toward those targets.

2
    ProgramNet is USAID’s internal online platform that responds to a growing demand from missions for
    examples, tools, and experiences from other missions. ProgramNet is maintained by USAID’s Bureau
    for Policy, Planning and Learning.

                                                                                                    9
USAID/Peru Overstated Results for
Jobs Created
ADS 203.3.11.1 states:

       High quality data is the cornerstone for evidence-based decision-making. To be
       useful for performance monitoring and credible for reporting, data should
       reasonably meet five standards of data quality including: (1) Validity: Data should
       clearly and adequately represent the intended result, and (2) Precision: Data
       should have a sufficient level of detail to permit management decision-making.

CARANA’s PMP stated that new and existing crops assisted would be considered in the job
creation calculation.

CARANA’s preliminary information shows that 8,693 jobs were created against the Year 1 target
goal of 8,600. The calculation was based on using 383 newly installed hectares of cacao and
14,965 preexisting hectares of cacao. However, these results were overstated because
USAID/Peru incorrectly took credit for jobs created in a previous program; the preexisting
hectares would already have an established workforce.

CARANA officials explained that they used preexisting hectares in their calculation because
their technical assistance resulted in a more labor-intensive method for existing crops. The
technical assistance they gave to farmers using the preexisting hectares involved grafting the
desired cacao variety onto existing trees planted shortly before the program started. These
trees would not yet be in the production phase because they take 4 years to produce fruit.

However, the audit team visited a cacao farm planted during the previous program and saw that
the 7-year-old trees were already highly productive and that the farmer already had labor in
place.

A USAID/Peru representative said the program should use only newly planted hectares in the
calculation and existing crops do not count toward job creation. USAID/Peru officials said they
planned to verify the program’s reported results in November/December 2013 and would fine-
tune the calculation based on the results. In addition, they said CARANA could be calculating
jobs created for plantains, which are planted simultaneously with the cacao; CARANA reported
2,822 hectares of plantains planted as of October 15, 2013. However, CARANA did not have a
method to calculate this result.

USAID/Peru uses the information from this indicator to report to Washington on jobs created
through support from the U.S. Government. Therefore, it is important that the numbers are
accurate. To get a more accurate count of jobs created by the program, we make the following
recommendation.

   Recommendation 7. We recommend that USAID/Peru document a revised calculation
   for jobs generated from existing crops assisted and document a full-time equivalent
   multiplier, which is a coefficient for calculating jobs created through planting plantains.




                                                                                                 10
OTHER MATTER

Sustainability of Cacao Alliance Was
Uncertain
According to ADS 201.3.15.3 (c) “Under most circumstances project outcomes are expected to
be sustainable, meaning they continue or evolve under their own momentum or actions, without
continued donor intervention.” Sustainable use of USAID’s $36 million investment in increasing
income from cacao depends in large part on the alliance continuing after the funding ends.

It takes 4 years for cacao trees to begin producing. The majority of the program’s trees are
scheduled to be planted between the second and fourth year. Therefore, for the program to
succeed in setting up a market for the fruit, keeping the alliance is critical, and it must be self-
sustaining.

While the alliance is completing its first year, CARANA and USAID/Peru do not have a written
agreement and plan for how to make sure the U.S. Government’s investment in improving
Peru’s cacao industry has a successful outcome. In its technical proposal, CARANA stated that
the cacao alliance and its principal activities were structured to be sustainable after USAID’s
support stopped. This would be accomplished in part by making the alliance a membership
organization within 2 years; by the fourth year, it would be fully functional without USAID’s
continued funding.

In CARANA’s draft Year 2 work plan, the program intends to form a nonprofit organization that
would be presented to CARANA’s advisory board for consideration. This new organization
would receive and manage contributions from public or private sources. CARANA officials said
this option was better because, unlike existing industry associations, the alliance structure
incorporates entities involved in every aspect of the cacao industry.

USAID/Peru officials said they were considering different options. The mission supports the
creation of a new nonprofit in Peru; however it may be perceived that USAID/Peru is favoring a
new nonprofit over existing organizations. In addition, one of the major alliance partners,
Armajaro, announced the sale of its cacao trading arm in early November 2013. Mission officials
said the sale of Armajaro has been having a positive impact on the alliance; however, the long­
term impact on project sustainability is not known.




                                                                                                 11
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/Peru agreed with all recommendations except for
Recommendation 7. Based on our evaluation of management comments, we acknowledge that
the mission has taken final action on two recommendations and made management decisions
on five recommendations. However, we disagree with the decision on Recommendation 7. Our
detailed evaluation of the comments follows.

Recommendation 1. The mission concurred with this recommendation, noting that the
development of a written sustainability plan was to be included in CEDRO’s second year work
plan. Subsequent to the audit, CEDRO drafted terms of reference to contract a specialized
consulting firm to work on a sustainability assessment of the centers. The assessment will be
used to develop the sustainability plan is expected to be completed by July 31, 2014. We
acknowledge that the mission made a management decision.

Recommendation 2. The mission concurred with this recommendation, noting that CEDRO’s
Digital Inclusion Program did not establish indicators for Component 3 (institutional
strengthening) because indicators were not considered critical for the first year of the activity.
CEDRO presented a list of indicators with targets for Component 3 to USAID/Peru for approval.
These are expected to be in place by March 31, 2014. We acknowledge that the mission made
a management decision.

Recommendation 3. The mission concurred with this recommendation, and provided CEDRO
with instructions on how to improve records for participant training. According to mission
officials, as of November 2013, CEDRO developed criteria for courses and planned to
implement this improved process. However, the mission did not provide evidence that this
process has been fully implemented. Therefore, we acknowledge that the mission made a
management decision.

Recommendation 4. The mission concurred with this recommendation and on November 6,
2013, asked CARANA to update its information in TraiNet. As of January 15, 2014, CARANA
had reviewed and updated its information to make sure it was complete and accurate.
Additionally, CARANA’s management has delegated the responsibility of updating TraiNet to the
monitoring and evaluation team in Peru that developed procedures and guidelines to confirm
complete, accurate reporting on training data. In addition, CEDRO has updated total training
records as of November 20, 2013. TraiNet training records reflect these changes made by both
implementers. Therefore, we acknowledge that the mission made a management decision and
final action on this recommendation.

Recommendation 5. The mission concurred with this recommendation. Officials said that as of
November 2013, CEDRO has (a) changed training and attendance records by adding
instructions on how to fill out the forms properly and add spaces so people trained can sign their
names; and (b) gave directives to administrators on how to keep updated records. Finally, to
help comply with these recommendations, mission officials stated that CEDRO established a
flow chart summarizing the monitoring process from the implementation of each activity all the
way through final reporting. However, the mission did not provide evidence that these policies


                                                                                               12
and procedures has been fully implemented. Therefore, we acknowledge that the mission made
a management decision.

Recommendation 6. The mission concurred with this recommendation and developed a new
reporting template that was approved by the Regional Program Office. CARANA agreed to start
reporting on expected targets and progress toward those targets using the new template. The
new template has been incorporated into CARANA’s last progress report. Therefore, we
acknowledge that the mission made a management decision and final action on this
recommendation.

Recommendation 7. The mission did not concur with this recommendation and decided that no
changes to the jobs calculation were needed. Officials said the calculation of jobs created
includes multipliers for hectares of cacao crops installed, maintained, and in production. In their
view, the number of jobs created accurately reflects proper use of this formula.

However, the multiplier for cacao is divided into categories to show that different phases of a
crop’s life cycle require differing levels of labor—with the production phase requiring the most
labor. The mission is including the existing productive hectares as assisted hectares based on
the new, more labor-intensive techniques the program introduced.

Since the existing hectares already have labor in place and the multiplier calculates the total
labor needed, it does not reflect that only a portion of the amount of labor needed would
increase. Our recommendation is to modify the multiplier when applied to existing hectares to
reflect that only an incremental increase in labor could result. Therefore, we disagree with the
mission’s management decision regarding this recommendation.




                                                                                                13
                                                                                      Appendix I



SCOPE AND METHODOLOGY 

Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the audit
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of the audit was to determine whether USAID/Peru is achieving its goal under
CEDRO’s Digital Inclusion Program and CARANA’s Peru Cacao Alliance awards.

	 CEDRO’s program objective was to contribute to the social and economic development in
   Huánuco, San Martín, and Ucayali, and to promote legal endeavors in alliance with public
   and private organizations.

	 CARANA’s program objective was to promote alternative economic development in former
   coca-growing areas, providing households in Huánuco, San Martín, and Ucayali with
   sufficiently attractive legal sources of income to prevent a return to growing coca while
   increasing living standards.

The mission awarded CEDRO a 3-year, $8 million cooperative agreement on May 4, 2012, to
implement the Digital Inclusion Program. As of November 6, 2013, cumulative obligations,
disbursements, and advances for the program totaled $5.9 million, $2.4 million, and $1.2 million,
respectively.

The mission awarded CARANA a 4-year, $36 million cooperative agreement on October 9,
2012, to implement the alliance. As of November 6, 2013, cumulative obligations,
disbursements, and advances for the program totaled $19.2 million, $5.7 million, and
$4.4 million, respectively.

The audit covered program activities from inception through October 23, 2013. Auditors
conducted fieldwork from October 1 through October 24, 2013, in Lima and in Huanuco, San
Martin, and Ucayali. We interviewed employees from the Peruvian Government, USAID/Peru,
State, CEDRO, CARANA, CARANA alliance partners, program beneficiaries, and officials from
local governments in Peru.

As part of the audit, we assessed the significant internal controls the mission used to monitor
the program. The assessment included controls to determine whether the mission (1) conducted
and documented site visits to evaluate progress and monitor quality, (2) reviewed and approved
required deliverables, and (3) performed data quality assessments and portfolio reviews.
Additionally, we reviewed the mission’s annual certification required by the Federal Managers’
Financial Integrity Act of 1982, 31 U.S. Code 3512, to verify whether the assessment cited any
relevant weaknesses. We reviewed previous audit reports in the alternative development area
for any issues related to the audit objective.




                                                                                              14
                                                                                      Appendix I


Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of the
programs, the performance of both CARANA and CEDRO, and the effectiveness and
sustainability of the activities. We met with USAID/Peru’s AORs for the programs, the alternative
development office director, various program office staff, the controller’s office staff, the
monitoring and evaluation specialist, the contracting office staff, and the gender specialist. We
had numerous meetings with CARANA and CEDRO employees, including the chief of party,
component managers, and monitoring and evaluation staff. We interviewed the State
Department’s Narcotics Affairs Section staff. We also met with users of technological centers,
farmers, and local officials to discuss the benefits derived from the centers.

To gain an understanding of the program, the audit team reviewed the mission’s cooperative
agreements and associated modifications, the PMPs, the operational plans, portfolio review
results, and site visit reports. We also reviewed CEDRO and CARANA’s work plans, progress
reports, environmental documents, branding and marking plans, training records, and other
documents that support the programs and results reported to USAID. We reviewed applicable
policies and procedures pertaining to USAID/Peru’s implementation of the programs, like the
ADS and selected mission orders.

We used a judgmental sample rather than a statistical sample for site visits. For CEDRO, we
judgmentally selected 11 of the 15 technological centers that are opened and 1 of the
10 centers that was scheduled to open by November 2013. For CARANA, we made 24 site
visits over 7 days and met with the regional staff, beneficiary farmers, alliance partners, and
local and government officials. A CARANA representative said the site visits touched on about
90 percent of the program’s activities.

The sample selection was based on an analysis of relevant factors such as inclusion of activities
from the three regions for both implementers, travel time to location, security, and coordinated
site visits of the programs. The final itinerary was refined through discussions with USAID/Peru
and implementers. Field visits were used to validate the use of funds and existence of sites and
activities, and to document aspects of monitoring, reporting, and compliance with environmental
requirements. Since a statistical sample was not used, the sample results cannot be projected
to the entire population.




                                                                                              15
                                                                                       Appendix II



MANAGEMENT COMMENTS
DATE:          February 13, 2014

TO:            Jon Chasson, Regional Inspector General/San Salvador

FROM:          Deborah Kennedy-Iraheta, USAID/Peru Mission Director /s/

SUBJECT: Comments to Audit of USAID/Peru’s Alternative Development Activities
______________________________________________________________________________

Thank you for giving USAID/Peru the opportunity to respond to the draft report of the Audit of
USAID/Peru’s Alternative Development Activities, per your memorandum dated January 13,
2014.

Below we have listed each of the main recommendations and findings of this audit. Following
each recommendation are USAID/Peru’s comments and suggestions for your consideration.
Additional comments on the body of the report are included in the last section of this
memorandum.

Recommendation 1. We recommend that USAID/Peru work with Centro de
Información y Educación para la Prevención del Abuso de Drogas to create a written
sustainability plan for the technological centers.

The Mission concurs with this recommendation.

The development of a written sustainability plan was called for by CEDRO’s second year work-
plan. The Cooperative Agreement with CEDRO intended from the start that the local
governments and communities be the main protagonists for sustainability. All Technology
Centers are being installed in locations provided by local governments (either alone or in alliance
with other public and private institutions) following the signing of an agreement with CEDRO.
Through the different MOU’s, these local governments committed to cover maintenance and pay
electricity, water and security expenses. The Digital Inclusion Program sees these agreements as
essential to ensure the economic sustainability of the Technological Centers.

Further support for sustainability is given by the strong community involvement with the
program since its inception. The communities are beneficiaries and partners in implementing the
Digital Inclusion Program, supporting the management, preparation and implementation of the
Technology Centers. Social sustainability is a process of developing ownership by communities,
including mechanisms of affiliation and encouragement of the participation of the target groups
so that:




                                                                                                16
                                                                                         Appendix II


   	 The existence and services of Technology Centers are positively valued by the 

      communities. 


   	 The target populations recognize that Technology Centers contribute to economic and
      social development.

   	 The target groups are integrated and remain active in the program, make it their own, and
      promote their advantages and benefits.

In addition, economic and social sustainability, adequate management and logistics, appropriate
legal and political conditions, as well as technological sustainability, are all paramount. It is the
case, therefore, that additional measures must be taken to ensure sustainability, and CEDRO has
taken such actions. Subsequent to the audit, CEDRO has drafted terms of reference to contract a
specialized consulting firm to develop a sustainability assessment of the Technology Centers,
which includes market research, a business model and a sustainability plan, with concrete actions
to transfer the Digital Inclusion Program to local governments.

When the sustainability plan is completed and accepted by CEDRO and USAID, we will request
that this recommendation be closed. We estimate this will be completed by July 31, 2014.

Recommendation 2. We recommend that USAID/Peru work with Centro de
Información y Educación para la Prevención del Abuso de Drogas to reevaluate and
document what indicators should be tracked for all three components and report on the
progress of these indicators.

We concur with this recommendation.

CEDRO’s Digital Inclusion Program established performance indicators for 2 of the 3
components but initially not for Component 3, Institutional Strengthening, because such
indicators were not called for by the logical framework and the base-line document of the first
year of the activity.

The Digital Inclusion Program has regularly issued its quarterly technical report documenting
progress in components 1 and 2, as scheduled. Also, a program base line was established by
quantifying the indicators to measure the program's output for these components.
For component 3, CEDRO has taken action by contracting a consulting firm to develop
indicators for the component. A revised indicator at the outcome level, including indicators for
the institutional strengthening component of CEDRO, was presented to USAID/Peru for
approval on January 27, 2014.

When the new proposed indicators are formally approved by USAID, we will request that this
recommendation be closed. We expect this approval to be given before March 31, 2014.

Recommendation 3. We recommend that USAID/Peru direct Centro de Información y
Educación para la Prevención del Abuso de Drogas to define in writing the criteria for


                                                                                                  17
                                                                                     Appendix II


reporting a person trained.

We concur with this recommendation.

In June of 2013, USAID trained a CEDRO staff member on how to report the number of persons
trained. As part of this training, the USAID Peru Regional Program Office requested CEDRO to
collect and track the necessary information about the trainings. However, the person who
eventually entered the data in TrainNet was not the person who attended the training.

RIG representatives identified that data were not entered correctly into the system and
recommended the following: a) only enter data for finished courses, b) only enter data for
participants who have successfully completed the course, not those who were disapproved or
who have voluntarily withdrawn, and c) enter the information for each course independently as if
each were a program in itself. Instructions to this effect have been given to CEDRO, and
CEDRO has agreed to implement this guidance and, as described below, information now
reported confirms that CEDRO has taken actions to correctly track the Digital Inclusion Program
trainees.

As of September 30, 2013, USAID reported that CEDRO had trained 720 individuals (317 men
and 403 women). Based on revisions made as suggested by the audit, however, on October 19,
2013, revised data indicates CEDRO had trained 36 groups, 31 for basic training and 5 at the
intermediate level, resulting in 195 individuals trained. As of November 30, 2013, a total of 73
groups had completed CEDRO digital literacy training, 53 for basic training, 16 intermediate,
and 4 at the advanced level of training, involving 420 individuals (177 men and 243 women).
These are individuals who have completed their particular training modules. The basic training
involves 12 sessions in 35 hours; intermediate 11 sessions in 30 hours; and advanced 15 sessions
in 37 hours. Because so many farmers cannot afford the time required to complete all the
training modules, the curricula is being redesigned to make it more feasible for farmers to
participate. In addition, these numbers do not reflect a significant amount of less-structured
training that takes place via video conferencing, etc.

Based on the actions taken by CEDRO, we request that recommendation 3 be closed upon report
issuance.

Recommendation 4. We recommend that USAID/Peru work with CARANA Corp. and
Centro de Información y Educación para la Prevención del Abuso de Drogas to update
USAID’s Training Results and Information Network to accurately reflect who has been
trained.

The Mission concurs with this recommendation.

The Mission, on November 6, 2013, requested CARANA to update its information on TraiNet.
As of January 15, 2014, CARANA had reviewed and updated its information to ensure
completeness and accuracy. Additionally, CARANA Corp’s management has delegated the
responsibility of updating TraiNet from its Virginia headquarters to its local M&E team who
have developed procedures and guidelines to ensure complete and accurate reporting on training


                                                                                              18
                                                                                       Appendix II


data. The actions taken by CEDRO concerning this recommendation are already discussed
above in response to recommendation 3.

Based on the actions taken by CARANA and CEDRO, we request that recommendation 4 be
closed upon report issuance.

Recommendation 5. We recommend that USAID/Peru work with Centro de
Información y Educación para la Prevención del Abuso de Drogas to implement policies and
procedures on what and how information should be collected at the technological
centers.

The Mission concurs with this recommendation.

As part of the M&E implementation mechanisms, the Technology Centers in operation have
records of users and participants in training activities, where for both cases general data is
collected such as name, age, place of birth, major occupation, address, phone number, email
address, etc. This is how the level of demand is known for the services offered and how the
number of recipients is determined for the target groups (farmers, youth and women).

During the audit visit in October 2013, it was verified that administrators at Technology Centers
collected the requested information, although in some cases delays or omissions were noted. On
the other hand, some administrators submitted additional information obtained on their own
initiative which was not a standardized practice.

CEDRO has implemented the OIG auditors’ suggestions and recommendations as follows: a)
changes in training records and attendance were made, adding legends with instructions for
properly filling out the forms and adding spaces for the signatures of trained users; and b)
directives were offered to administrators to employ and keep updated records. Finally, to help
comply with these recommendations, the program established a flow chart summarizing the
monitoring process from the implementation of each activity all the way through final reporting.

Given the actions taken already by CEDRO, we request closure of this recommendation on
report issuance.

Recommendation 6. We recommend that USAID/Peru develop in conjunction with
CARANA a template for summarized reporting of expected target results and progress
toward those targets.

The Mission concurs with this recommendation.

The Mission has developed a new reporting template that was approved by the Regional Program
Office, and CARANA has agreed to henceforth report expected targets and progress towards
those targets using the new reporting template.



                                                                                                 19
                                                                                           Appendix II


Based on the actions taken by CARANA, we request this recommendation also be closed upon
report issuance.

Recommendation 7. We recommend that USAID/Peru document a revised calculation
for jobs generated from existing assisted crops and document a full-time equivalent
multiplier for calculating jobs created through planting plantains.

The Mission does not concur with this recommendation.

Upon reviewing CARANA’s job creation calculation, the Mission concluded that CARANA
accurately reflected the number of jobs it created in year one. CARANA’s Performance
Monitoring Plan (PMP) states that new and existing hectares of crops would be considered in its
calculation. The calculation includes multipliers for hectares of cacao crops installed,
maintained, and in production. The number of jobs created accurately reflects proper use of this
agreed upon formula. The recommendation states ‘pre-existing hectares would already have an
established workforce’, and should therefore not be considered when calculating jobs
created. The Mission disagrees: While pre-existing hectares do indeed have an established
workforce, introducing new labor-intensive practices which farmers adopt directly results in
additional work that can be translated into full-time equivalent jobs. For example, if a farmer
with existing hectares is convinced that more work is necessary and worthwhile in order to
greatly improve productivity, the existing workforce will not be sufficient and new jobs will be
created. The draft report further states that “hectares assisted meant grafting the desired cacao
variety onto existing trees.” This is incomplete; hectares assisted not only included grafting
work, but also pruning, fertilizing, improved post-harvest handling and a variety other labor-
intensive activities. CARANA’s calculation for jobs created encompasses all such activities
within the installation, maintenance, and production stage and in the Mission’s view therefore
accurately calculates the number of full-time equivalent positions created in year one. “Assisted
crops” already includes both plantains and cacao.


Body of the Report

Below are some suggested changes to consider before the final issuance of the audit report.

For readers not already familiar with USAID/Peru’s Alternative Development (AD) portfolio, it
is important to note that the two activities audited are only part of the overall AD effort,
representing far less than half of the overall AD budget. The two implementers involved here
are part of an effort which involves various other implementers, both public and private, actively
engaged in an overall effort to create alternative livelihoods for former coca growers in Peru.

There also are a few statements in the Draft Report which the Mission would ask to be corrected.
The second sentence of the Summary of Results, for example, states that the mission “developed
initiatives to eradicate coca . . . .” This is not correct; all eradication work and planning for it is

                                                                                                    20
                                                                                         Appendix II


done by State/INL and the Peruvian Government rather than USAID. The summary also
indicates that Peru’s overall cultivation of coca has increased “steadily” since 2005. Both
internal USG reports and the United Nations Office of Drug Control (UNODC) annual surveys
indicate, however, that eradication efforts, together with AD activities, have led to a marked
leveling out of the total area under cultivation of coca since 2010.

A few other statements in the Draft Report, in our view, need to be revisited.

   	 In the Summary of Results, the fact that CARANA showed only limited results in the
      first year is attributed solely to difficulties in staffing, registration, leadership divisions,
      and procurement of plants. In fact, the biggest factor is simply that results, as planned
      from the start, will take time to produce. Fine flavored cacao cannot be either planted or
      grown quickly. Considerable initial ground work, in terms of locating sites and
      establishing necessary local relationships and agreements, was known from the beginning
      to be necessary before meaningful results would be obtained. The Report should note
      this as well as the other factors.
   	 On page 5 of the Draft Report, the information about the plans to open technology centers
      should be corrected to reflect that 25 centers are open as of January of 2014; the
      remaining 5 will be open by April of 2014.
   	 In the “Other Matter” section [sic], there is an implication that it is somehow
      inappropriate for USAID to support the creation of a new nonprofit in Peru. USAID
      remains fully supportive of CARANA’s intention to create a nonprofit to assist in
      achieving the objectives of this activity. We suggest this comment be deleted.
   	 Also in the “Other Matter” section, doubt is raised about the impact of the sale of the
      cacao trading arm of Armajaro. From events subsequent to the audit, we know that this
      purchase is having a positive impact on the Alliance. It brings the committed resources
      of a much larger partner to the table. The buyer has confirmed its commitment to the
      objectives of the Alliance. We suggest this comment also be deleted.




                                                                                                   21
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
